  -                    CLOSEOUT FOR M95090040
                                                            -
-
     This case came to OIG on September 28, 1995, when Dr.
,         a Prosram officer in NSF'S ~ivision 6f- i
           brought us a complai
Department of                at
complainant). The complainant alle
of
h                e              r of                  -      -
       (Subject #2Txappropriated ideas from-the complainant' s
NSF proposal. .-              NSF sent Subject #2 a copy of the
complainant's proposal for confidential merit review, but Subject
#2 did not send NSF an evaluation of the proposal.
     Subject #1 and the complainant work on closely related
research topics. Subject #1 submitted3)-1             at the same
time that the complainant submitted her proposal. The work the two
proposed is similar. The subjects collaborated on a manuscript3
(the manuscript) reporting research results from the project that
Subject #1 had proposed to NSF and that NSF declined to fund.
Subject #2's NSF award4 supported revisions of this manus~ript.~



ai award.


declined to fund it.
     3 ~ h manuscript,
           e
submitted to
                       entitled                       --,     was




     'NSF did not support the work that was reported in subjectsr
original version of their manuscript, which was submitted before
Subject #2 received the award that supported the revised version.
OIG therefore determined that we lacked jurisdiction over any
alleged misconduct concerning the original manuscript.        The
complainant alleged that in the original manuscript the subjects
failed to cite the complainant's work as a source of their ideas.
                            page 1 of 2                    M95-40
                      CLOSEOUT FOR M95090040

     The complainant alleged that Subject #I, during a conversation
about the complainant's research plans, had told the complainant
that she possessed the copy of the complainant's proposal which NSF
sent to Subject #2 for review. The complainant further alleged
that Subject #1 said she planned to use results reported in the
complainant's proposal in her own future research. OIG wrote to
the subjects to inquire about this alleged violation of the
integrity of the confidential merit review process. The subjects
informed OIG that Subject #2 did not share the proposal with
Subject #1 or discuss its contents with her, but that he did
mention to Subject #1 that NSF had asked him to review a proposal
the complainant submitted.      OIG concluded that Subject #lls
admitted action, taken alone, could not be considered misconduct in
science.
     The complainant alleged that the manuscript misappropriated
ideas in the complainant's proposal. OIG consulted an expert in
the relevant area of research. OIG's consultant concluded that the
ideas in the manuscript were a natural outgrowth of ideas that
Subject #1 had developed in her proposal and that there was no
evidence that these ideas derived in any way from the complainant's
proposal.   OIG concluded that there was no substance to the
allegation of intellectual theft and no reason to believe that the
subjects had misused the proposal that had been sent to Subject #2
for peer review.
     This inquiry is closed and no further action will be taken on
this case.




The subjects' revised manuscript includes a more thorough
literature review, which includes reference to the complainant's
research. OIG received evidence that time 'constraints led the
subjects to submit the original manuscript with a relatively
cursory literature review in the expectation that they would be
able to write a more complete survey of the literature at a later
stage .
                           page 1 of 2                      M95-40
